                                   Office of Inspector General
                 OPERATING AND PERFORMANCE PLAN
                                         Fiscal Year 2001



                       MISSION, OBJECTIVES AND GOALS OF THE
                        OFFICE OF INSPECTOR GENERAL (OIG)

        The mission of the Office of Inspector General (OIG) is to be an agent of
        positive change, striving for continuous improvement in the Farm Credit
        Administration’s (FCA or Agency) management and program operations.



Objective No. I: Audit and evaluate FCA’s programs and operations to promote economy,
efficiency and effectiveness.

    Goal I-1: Deliver quality audit and inspection products and services that are useful to the
    Board, management, and/or Congress                            FY 2001 budget - $520,258

    We expect to produce at least six evaluative reports this year. The FY 2001 Audit Plan
    included at Tab 2 displays audit objectives from which actual audit assignments will be made
    during this period; however, other audits and inspections are likely to be added as issues
    emerge after the plan is developed. We assume that OIG’s only auditor position will be filled
    throughout the year, supplemented by audit services obtained by contracts with independent
    auditors, appropriate subject matter specialists and other OIG staff members.

    Performance measures:
    1. Audit and inspection coverage includes at least 75% of those suggested by the Board and
        management.
    2. 100% of audits and inspections are performed in high-risk programs and activities or are
        tied to the Agency strategic planning goals.
    3. Findings identified during fieldwork are communicated to management prior to drafting
        the report.
    4. Draft reports are issued no later than six months after commencing the review.
    5. 85% of audits and inspections include recommendations or agreed upon actions to
        improve Agency operations.
    6. Agency management accepts at least 80% of OIG’s recommendations.
    7. The Agency actually implements all corrective actions called for by management
        decisions.



FY 2001 Operating and Performance Plan                                              Page 1 of 5
    Goal I-2: Provide technical advice and assistance to Agency officials in developing sound
    management information and financial reporting systems and in streamlining programs
    and organizations.                                             FY 2001 budget - $19,123

    OIG provides an independent perspective about opportunities for program improvements
    based on information about Federal administrative issues and Agency management issues
    received from a variety of sources. Emerging Federal issues and priorities are regularly
    communicated to the Inspector General by the Office of Management and Budget through
    participation in the Executive Council on Integrity and Efficiency (ECIE). Potential
    problems are communicated through complaints about internal Agency programs through the
    OIG Hotline; and observations are made by OIG staff during audits and investigations about
    matters outside the scope of that review. The Chairman and managers also request advice or
    assistance from the Inspector General about issues of concern to them. Whenever our
    evaluation of such information indicates a need to provide advice to the Chairman or specific
    managers, an advisory will be developed.

    OIG’s on-going survey of Farm Credit System institutions provides confidential customer
    feedback for the FCA Board about the Agency’s examination and enforcement activities.
    Semiannual status reports are provided to the Board, identifying any trends or recurring
    issues.

    Performance measures:
    1. The Inspector General will provide from four to six advisories to the Chairman
        concerning policy direction or administrative issues.
    2. The Inspector General and OIG staff will provide analysis and technical advice about
        programs and operations to managers, both at their request and on our own initiative.


Objective No. II: Investigate observed, alleged or suspected wrongdoing to prevent and
detect fraud, waste, abuse and mismanagement in Agency programs and activities.

    Goal II: Effectively investigate and report administrative and criminal violations relating
    to FCA programs and personnel.                                 FY 2001 budget - $30,457

    The Inspector General Act establishes the Inspector General’s duty to prevent and detect
    fraud, waste, abuse and mismanagement in Agency programs and operations, particularly
    through independent investigations of observed or suspected wrongdoing or where there are
    known weaknesses in controls. Because of the size of FCA and the relatively low dollar
    impact of wrongdoing, the U.S. Attorney often declines prosecution of illegal acts identified
    in investigative reports and administrative remedies are more often pursued. Timeliness of
    administrative sanctions has a direct correlation on the value of those sanctions.




FY 2001 Operating and Performance Plan                                              Page 2 of 5
    Performance measures:
    1. Investigations are completed within six months of opening the case.
    2. Memoranda are provided to management whenever internal control weaknesses or
        program deficiencies are identified during investigations.
    3. Convictions, pleas or administrative actions result when investigations identify
        wrongdoing.


Objective No. III: Review and make recommendations regarding existing and proposed
legislation and regulations relating to Agency programs and operations and the Inspectors
General community.

    Goal III: Maintain an effective program for reviewing and commenting on proposed and
    existing legislation and regulations.                        FY 2001 budget - $21,956

    Commenting on proposed and existing legislation, regulations and Agency policies is an
    opportunity for OIG to exercise its principle to be innovative and question existing
    procedures and offer suggestions for improvements.

    Performance measures:
    1. Comments on external documents are provided within the established time frame.
    2. A summary of any documents reviewed is included in the Semiannual Report.


Objective No. IV: Work with the Chairman and Agency management to improve program
management within the Agency and in our own office.

    Goal IV-1: Build relationships with program managers based on a shared commitment to
    improving program operations and effectiveness.             FY 2001 budget - $89,950

    OIG staff members are encouraged to participate in Agency special projects because we
    believe that management practices at FCA are improved through such activities. We believe
    that participation leads to Agency employees’ acceptance of, and cooperation with, OIG
    activities through better understanding.

    Performance measures:
    1. Encourage and support developmental assignments between FCA OIG and other
        organizations within the IG community.
    2. OIG functions are included in FCA Policies and Procedures Manual (PPM).
    3. Audit reports are included in the FCA Plans and Reports database and the FCA Library
        within 30 days of distribution.




FY 2001 Operating and Performance Plan                                          Page 3 of 5
    Goal IV-2: Continuously improve OIG staff, products and internal office administration.
                                                               FY 2001 budget - $100,575

    The quality of OIG’s internal administrative practices is a significant factor in the credibility
    of our administrative findings in our reviews of other offices. Approaching our own office as
    a laboratory to identify and refine good management practices also contributes to more
    practical recommendations and agreed upon actions in our audit and inspection reports. OIG
    directives define practices and expectations.

    The very small size of our office dictates that cross training, teamwork and technology are
    used to their full potential to streamline internal operations.

    The routine methods used to identify potential improvement opportunities include: feedback
    obtained through responses to surveys from Agency users of OIG’s report products; staff
    participation in special projects within the Agency; interagency projects sponsored by the
    ECIE or other organizations supporting the Inspectors General community; and assignments
    between other Agency components or other OIGs. Individual development plans identify the
    formal training and other experiences appropriate to assure that OIG possesses the collective
    competencies to fulfill our responsibilities. We provide information and support to other
    organizations interested in implementing systems or practices developed by our office. The
    statutory requirement for a peer review by another Federal audit organization provides an
    independent assessment of our audit operations every three years.

    Performance measures:
    1. A peer review by another OIG will be conducted every three years.
    2. Feedback from customer survey instruments issued to all report recipients is used to
        improve products and services.
    3. Staff complete the training identified in their Individual Development Plans.
    4. OIG directives are reviewed and updated at least every three years.
    5. Staff participates in teamwork training during FY 2001.
    6. Staff will be cross-trained to provide backup for each OIG function.


    Goal IV-3: Work with the Inspectors General community and other related organizations
    to address government wide issues.                         FY 2001 budget - $50,287

    Interagency activities contribute to our objectives for improving practices or resolving issues
    pertaining to the entire OIG community or to the Federal government generally, and provide
    opportunities to identify practices of other agencies which may benefit FCA and our own
    office. Best practices identified through interagency projects and professional organizations
    will be benchmarks for our own operations. That awareness also furnishes criteria for
    advisories to the Chairman and managers.



FY 2001 Operating and Performance Plan                                                 Page 4 of 5
    Time and resources are provided to OIG staff members as an incentive to contribute to
    professional organizations by serving on committees and holding offices. We believe those
    experiences provide the individual with a broader perspective that makes their work within
    the Agency more effective.

    Performance measures:
    1. Staff participate in the activities of at least one outside organization.
    2. Each staff member serves on at least one Agency-wide workgroup or activity.
    3. Staff serve on ECIE/President’s Council on Integrity and Efficiency committees and
        interagency workgroups.
    4. Best practices identified through interactions with other organizations are implemented.

    Objective IV-4: Keep the Chairman and the Congress fully and currently informed of
    problems in Agency programs and operations.               FY 2001 budget - $22,665

    The Inspector General Act requires semiannual reports as the primary vehicle to meet this
    objective. The semiannual report is addressed to the Chairman who transmits it to the
    Congress together with management’s report on progress in implementing corrective action
    on recommendations by the Inspector General. This assures that all significant information is
    routinely communicated to both parties.

    Performance measures:
    1. Semiannual reports fully comply with the requirements of the Inspector General Act and
        are furnished within 30 days after the end of each reporting period.
    2. Any problems in the on-going activities of OIG are highlighted during regular meetings
        with the Chairman




FY 2001 Operating and Performance Plan                                              Page 5 of 5
